                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 1-12110082                                                                   Page 1 of 1



         This case was opened following contact from a company1 that requested to withdraw the letter of
         support it had provided for another company's 2 proposal for supplemental funding. We
         interviewed NSF staff regarding the letter of support and found that it was not required for the
         supplemental award, but concerns regarding the company's finances were raised.

         We reviewed the company's expenditures and found no improper expenses. We compared
         proposals submitted by the company to other federal agencies and found no evidence of
         overlapping funding.

         This case is closed with no further action taken.




NSF OIG Form 2 (11102)
